August 21, 2009


MEMORANDUM FOR:            LISA D. FIELY
                           Acting Chief Financial Officer




FROM:                      ELLIOT P. LEWIS
                           Assistant Inspector General
                            for Audit

SUBJECT:                   Alert Memorandum: Department of Labor New Core
                           Financial Management System (NCFMS) Training
                           Report Number: 22-09-014-13-001


The Office of Inspector General (OIG) contracted with an independent public accounting
firm, KPMG LLP (KPMG), to conduct a review to identify potential risk associated with
the implementation of the NCFMS prior to its scheduled deployment on October 14,
2009. At the entrance conference, we agreed to notify the Department of any
unmitigated risk during the implementation process. Accordingly, we are raising
concerns about the completion of required training prior to the system implementation.

The NCFMS implementation team expects to have 5,525 users by the date of
implementation. There are 16 training modules available to train employees based on
their roles and responsibilities. The conversion to the NCFMS will have the greatest
impact on 400 DOLAR$ users, and they will need extensive training in multiple
modules. Ensuring they receive the appropriate training before conversion is critical to
the success of the conversion. The remaining 5,125 users will be secondary users who
will be less impacted by the conversion and their training needs, although important, will
be less extensive. These users will need training on a portion of the modules.

Identifying an employee’s role and responsibility is the first step in determining which
training module the user should take. For example, an accounts payable technician
should take the accounts payable module to ensure proper training is received.
We found that user roles and responsibilities have not been adequately assigned and
that related specific user role-based training has not been completed. Specifically, 135
out of 400 (34 percent) DOLAR$ users have not been assigned NCFMS user roles and
responsibilities.

We also found that 93 out of the 400 current DOLAR$ users (23 percent) have not
completed required training in any of the 16 training modules. In addition, zero out of
5,125 Procurement-EPS, Grants-EGrants, and Purchase Cards-PCards (BLS) users
completed the required training.
        Table 1: NCFMS Users
        Existing                    Number of        Number of         Employees
        Application                    Active            Roles/        Completed
                                       Users     Responsibilities        Training
                                                      Assigned
        DOLAR$                             400               265              307
        Procurement-EPS
        (including Contracts
        Module)                          3,500             3,500                0
        Grants-EGrants                   1,500             1,500                0
        Purchase Cards-PCards
        (BLS)                              125               125                0
        TOTAL*                           5,525              5390              307
        *Source: NCFMS Team

Office of Management and Budget (OMB) Circular A-127 prescribes that managers will
provide adequate training, and appropriate user support shall be provided to the users
of the core financial systems based on the level, responsibility, and roles of individual
users. The Circular also states that training shall enable the users of the systems at all
levels to understand, operate, and maintain the system.

The DOL NCFMS team stated that several measures are in place or planned for
assigning user roles and responsibilities and conducting training to ensure all training
occurs prior to NCFMS implementation. For example, we are aware that the NCFMS
implementation team is planning to provide training to the 5,125 users in September.
Additionally, as of August 19, 2009, 97 percent of user roles and responsibilities have
been assigned. However, only 77 percent of DOLAR$ users and none of the
Procurement EPS, Grants-EGrants, and PCards (BLS) users have completed training.
We consider this a significant risk as the new system is a complex Oracle-based
accounting system that requires extensive planning and execution of role-based user
training to ensure that the implementation is not delayed and business transactions are
properly accounted.

It is critical that the Department ensure all applicable DOL users have been assigned
their appropriate roles and responsibilities and receive adequate training prior to
implementation of the NCFMS.

We request that you take action and respond to this report within 10 days. Please
contact Joseph L. Donovan, Audit Director, Office of Audit, at (202) 693-5248, if you
have any questions.

cc: 	   Seth D. Harris, Deputy Secretary
        John Blair, Associate, Deputy Chief Financial Officer
        Ken Bode, Director, Systems Architecture and Development
